@OCKLE

Legal Bri s E-Mail Address:
8 re f contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-1135

DIGNITY HEALTH, DBA MERCY SAN JUAN MEDICAL
CENTER,
Petitioner,
v.
EVA MINTON,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 16th day of April, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE CENTER FOR
CONSTITUTIONAL JURISPRUDENCE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to
be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly
addressed to the following:

SEE ATTACHED

To be filed for:
JOHN C. EASTMAN
ANTHONY T. CASO
Counsel of Record
Claremont Institute’s Center for
Constitutional Jurisprudence
c/o Dale E. Fowler School of Law
Chapman University
One University Drive
Orange, CA 92866
(877) 855-3330
caso@chapman.edu

Counsel for Amicus Curiae

Subscribed and sworn to before me this 16th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

       

2. 0.2, L7 Quidiar-h, Glele

GENERAL MOTARY-State of Medraska
RENEE J. GOSS
Notary Public (/ Affiant

My Comm. Exp. Septamber &, 2023

  

 

 
 
   
 
    
    
      
     

Attorneys for Petitioner

Jeffrey Matthew Harris Consovoy McCarthy PLLC 202-321-4120
Counsel of Record 1600 Wilson Blvd.
Suite 700

Arlington, VA 22209

jeff@consovoymecarthy.com

Party name: Dignity Health d/b/a Mercy San Juan Medical Center

Attorneys for Respondent

 

   
   
     
   
 
   

Amanda Chloe Goad American Civil Liberties Union Foundation 213-977-5218
Counsel of Record of Southern California
1313 West 8th Street

Los Angeles, CA 90017

agoad@aclusocal.org

Party name: Evan Minton

 
